U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

April 15, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Jonathan Figueroa-Serrano v. United States of America,
S.Ct. No. 20-7528

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 17,
2021, and placed on the docket on March 22, 2021. The government’s response is due on April
21, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including May 21, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7528
FIGUEROA-SERRANO, JONATHAN
USA

JASON TUPMAN
FEDERAL PUBLIC DEFNDER'S OFFICE
101 S. PIERRE ST.
PO BOX 1258
PIERRE, SD 57501
605-330-4489

